   Office of Inspector General
       Audit Report



 FISMA 2013: DOT HAS MADE PROGRESS,
BUT ITS SYSTEMS REMAIN VULNERABLE TO
     SIGNIFICANT SECURITY THREATS
         Department of Transportation

          Report Number: FI-2014-006
         Date Issued: - November 22, 2013
           U.S. Department of
                                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FISMA 2013: DOT Has Made                                                      Date:    November 22, 2013
           Progress, But Its Systems Remain Vulnerable to
           Significant Security Threats
           Report Number: - FI-2014-006

  From:    Calvin L. Scovel III                                                              Reply to
                                                                                             Attn. of:    JA-20
           Inspector General

    To:    Chief Information Officer

           The Department of Transportation’s (DOT) operations rely on more than 450
           information technology (IT) systems, nearly two-thirds of which belong to the
           Federal Aviation Administration (FAA). These systems represent an annual
           investment of approximately $3 billion—one of the largest IT investments among
           Federal civilian agencies. Moreover, the Department’s financial systems manage
           and disburse approximately $90 billion in Federal funds annually.

           To protect Federal IT systems, the Federal Information Security Management Act
           (FISMA) of 2002 requires agencies to develop, document, and implement
           Departmentwide information security programs. FISMA also requires agency
           program officials, chief information officers (CIO), and inspectors general to
           conduct annual reviews of their agencies’ information security programs, and
           report the results to the Office of Management and Budget (OMB). As part of this
           review, OMB requires inspectors general to use 98 security metrics in 11 security
           areas to assess their agencies’ performance.

           Consistent with FISMA and OMB requirements, our audit objective was to
           determine the effectiveness of DOT’s information security program and practices.
           Specifically, we assessed DOT’s (1) information security policy and procedures;
           (2) enterprise-level information security controls; 1 (3) system-level security
           controls; and (4) management of information security weaknesses. Also, as
           required by OMB, we provided our results to OMB via its Web portal. 2
           1
             For purposes of this report, enterprise-level controls include security training, incident response and reporting, capital
           planning and investment control, and configuration management, and are generally not system-specific.
           2
             OMB designated this information “For Official Use Only.” Consequently, our submission to OMB is not contained in
           this report.
                                                                                                                    2


We conducted this audit between February and October 2013 in accordance with
generally accepted Government auditing standards. To address OMB’s
2013 FISMA reporting metrics, we assessed 60 sample systems, 55 of which we
also evaluated during fiscal year 2012. We also performed analytical reviews of
data contained in the Department’s Cyber Security Assessment and Management
system (CSAM), 3 tested software settings in eight general support systems,
reviewed supporting documentation, and interviewed Department officials. As part
of this audit we selected a statistical sample of 994 out of 79,759 computers that
allowed us to project that 83 percent 4 of the DOT computers are compliant with
configuration standards. 5 Exhibit A provides more details on our scope and
methodology.

RESULTS IN BRIEF

Since our 2012 review, DOT has made progress in its information security
program. For example, the Office of the Chief Information Officer (OCIO) issued
continuous monitoring guidance, continued to implement the personal identity
verification (PIV) program, and began deploying its software for configuration
management. However, the Department’s information systems remain vulnerable
to serious security threats due to the following deficiencies:

1. The Department has not completed its procedural guidance. Specifically,
   OCIO’s enterprise architecture 6 (EA) guidance is not detailed enough to ensure
   DOT’s 13 operating administrations (OA) 7 create effective EA procedures. In
   addition, OAs have yet to complete information security management
   procedures, such as continuous monitoring, as required by OCIO’s security
   policy. These gaps in DOT procedures have contributed to the security
   weaknesses we identified.

2. DOT’s enterprise-level controls—controls that must be implemented
   Departmentwide—are still not adequate to ensure that (1) all contractors
   receive required security training; (2) personnel with significant security
   responsibilities receive sufficient specialized training; (3) all possible security
   incidents are detected and reported to the Department of Homeland Security
   (DHS), and are remediated promptly; and (4) configuration baselines and

3
  CSAM tracks system inventories, weaknesses, and other security information.
4
  Our estimate has a margin of error of +/-8.4 percentage points at the 90 percent confidence level.
5
  United States Government Configuration Baselines are security configuration settings developed by the National
Institute of Standards and Technology (NIST), the Department of Defense, and DHS for certain Windows operating
systems.
6
  An EA defines an agency’s mission, the information and technologies necessary to perform the mission, and the
transitional processes for implementing new technologies in response to changing mission needs. An EA includes both
a baseline (current) and a target (planned) IT structure, and a plan for transitioning from the current to the planned.
7
  See Exhibit C for a list of the OAs, their full names, and their acronyms.
                                                                                     3


   changes are appropriately managed. Furthermore, despite some progress, the
   Department has not fully complied with configuration standards, including
   those for Microsoft Windows. DOT also continues to lack a Departmentwide
   risk management program, and does not sufficiently consider IT security in its
   investment planning.

3. The Department’s system-level controls also remain insufficient to protect
   system security and ensure systems can be recovered in the event of an
   emergency shutdown. OAs have not implemented controls for identifying and
   managing the risks associated with their systems, such as authorization of
   system operation, coordination of shared security controls, continuous security
   control monitoring, user identity verification and access control, and
   contingency planning and testing. Establishing a risk management framework
   that incorporates such controls is critical to securing DOT’s IT systems. The
   Department also continues to have problems identifying contractor-operated
   systems and complying with requirements for using cloud computing.

4. Last, the Department still lacks an effective process for timely remediation of
   security weaknesses. Of the more than 6,700 open plans of action and
   milestones (POA&M), approximately 37 percent did not have planned start
   dates, and almost 65 percent—including some that were high priority due to
   serious risk—did not have remediation costs assigned to them. Furthermore,
   not all security weaknesses had been reported to CSAM, the central repository
   that the Department uses to track security weaknesses and their remediation.

We are making a series of recommendations to help the Department establish and
maintain an effective information security program—one that complies with
FISMA, OMB, and other requirements.

BACKGROUND

FISMA requires each Federal agency to establish an information security program
that secures the information and information systems that support the agency’s
operations, including those provided or managed by another agency, a contractor,
or other entity. Similarly, OMB Circular A-130, Appendix III, “Security of
Federal Automated Information Resources,” requires Federal agencies to plan for
security, ensure that appropriate officials are assigned security responsibilities, and
periodically review their information systems’ security controls. FISMA also
requires each agency to report annually to OMB, Congress, and the Government
Accountability Office on the effectiveness of its information security policies,
procedures, and practices.
                                                                                                              4


DOT’s 13 OAs manage the Department’s 454 information systems. DOT relies on
these systems to carry out its mission, including safe air traffic control operations,
preventing unqualified drivers from obtaining commercial driver’s licenses, and
identifying safety defects in vehicles. The Department must also protect billions of
dollars for highway reconstruction, high-speed rail development, and law
enforcement grants.

Since 2008, we have reported on weaknesses in DOT’s information security
program and practices. Over the past 3 years, we reported the following:

• The Department successfully provided security awareness training to over 90
  percent of its employees but had not made sufficient progress in other critical
  areas. 8 In its assurance letter to the President, the Department reported that its
  non-compliance with FISMA during 2010 constituted a material weakness in
  internal controls.

• The Department made some improvements in its cybersecurity. It developed a
  comprehensive cybersecurity policy for the Department, except the Office of
  the Secretary (OST), 9 and reported all major security incidents to DHS.
  However, it had not corrected weaknesses in its information security
  procedures, enterprise-level and system-level controls, and management of
  corrective actions. 10 Overall, the Department’s information security system
  remained ineffective.

• The Department made improvements to its security controls. Notably, it took
  steps to enhance the Department’s cybersecurity policy and guidance,
  established a repository for software security baselines, and acquired
  sophisticated software to improve its security monitoring. However, the
  Department had not implemented many of the recommendations we made in
  prior reports that would permit it to meet Federal IT security requirements. 11
  As a result, the Department’s information systems remained vulnerable to
  serious security threats and risks.

Exhibit B contains the status of prior year recommendations.




8
  Timely Actions Needed to Improve DOT’s Cybersecurity, OIG Report Number FI-2011-022, November 15, 2010.
9
  In 2011, OST management had differing views on needed policy changes. As a result, the Department excluded OST
from DOT-wide security policy. Subsequently, the Department issued OST-specific security policy.
10
   Persistent Weaknesses in DOT’s Controls Challenge the Protection and Security of Its Information Systems,
OIG Report Number FI-2012-007, November 14, 2011.
11
   Ongoing Weaknesses Impede DOT’s Progress Toward Effective Cybersecurity, OIG Report Number FI-2013-014,
November 14, 2012.
                                                                                                       5


OCIO AND OAs HAVE NOT COMPLETED THE REQUIRED
SECURITY PROCEDURES

FISMA requires each department’s CIO to develop and maintain information
security policies and procedures to address security requirements. CIOs may also
delegate to their agencies authority for creating procedures that comply with
Departmentwide policies. In response to our recommendations, OCIO issued its
policy and required OAs to complete compliant procedures within a year.
However, OAs have not completed all required procedures. Table 1 highlights
important areas that remain outstanding.

Table 1. Significant Deficiencies in Procedures

Security Program Area                            OIG Evaluation
Continuous Monitoring of Controls
Ensures controls remain effective over time. OAs still need to develop or improve their
                                             procedures for performing continuous monitoring.
Risk Management
Identifies and tests controls, assesses risk,    Both OCIO and OAs must develop procedures for
determines whether risks can be accepted,        accepting and monitoring shared security controls.
and authorizes the system to operate.
Capital Planning and Investment
Ensures security funding is incorporated         OAs have not developed procedures for managing
into system budgeting.                           security costs as part of their IT capital planning.
                                                 OCIO also has not developed guidance to assist
                                                                                              12
                                                 OAs in creating effective EA procedures.
Source: OIG Analysis

The lack of procedures for implementing security requirements increases the risk
that OAs will not properly apply security controls to their information systems.
Further, the absence of procedures has contributed to the other security
weaknesses we identified.

In its policy, OCIO also delegated authority to OAs to develop supplemental
guidance on effective and consistent implementation of information security.
However, at the end of fiscal year 2013, not all OAs have completed their OA-
specific supplemental guidance. The CIO informed us that his office will review
each OA’s guidance, once developed, to ensure that it aligns with the
Department’s policy.



12
  DOT Does Not Have An Effective Enterprise Architecture Program for Management of Information Technology
Changes, OIG Report Number FI-2012-086, April 17, 2012.
                                                                                                                      6


DOT LACKS THE ENTERPRISE-LEVEL CONTROLS NEEDED TO
SAFEGUARD ITS IT SYSTEMS

DOT’s enterprise-level controls—controls that must be implemented across the
Department—remain inadequate. Specifically, DOT lacks the controls needed to
ensure all contractors receive required security training, and employees who
require specialized training receive it. The Department’s efforts to properly detect
and report security incidents, appropriately manage configuration baselines, fully
address risk, and consider security costs in IT investment planning remain
ongoing.

The Department Lacks Data To Track Required Security Training for
DOT Contractors

FISMA requires agencies to develop and maintain a comprehensive security
training program that ensures all computer users 13 are adequately trained in their
security responsibilities before they are allowed access to information systems.
However, since 2008, DOT has not adequately tracked the number of contractors
it employs and, therefore, does not know how many contractors have completed or
need to complete required security training—increasing the risk that contractors
will accept malicious codes through social engineering, 14 develop poor passwords,
misuse the Internet, or create other security vulnerabilities.

In fiscal year 2013, DOT senior officials again reported that the Department had
not implemented a tool to track security awareness training for contractors. The
current process for tracking contractor training continues to produce data that
differ between OCIO and OAs. Table 2 provides some examples:

Table 2. Examples of Discrepancies in OCIO- and OA-Reported
Contractor Data

Discrepancy                                                                  OCIO Reported           OA Reported

Number of MARAD contractors                                                                 491                  123
RITA contractors requiring security training                                                157                  328
FHWA contractors that did not complete security training                                    211                    50
Source: OIG Analysis




13
   Users may include employees, contractors, foreign or domestic guest researchers, other agency personnel, visitors,
guests, and other collaborators or associates requiring access.
14
   Social engineering is an attempt to trick someone into revealing information, such as a password, that can be used to
attack systems or networks.
                                                                                  7


Most DOT Personnel With Significant Security Responsibilities Did
Not Meet Specialized Security Training Requirements

DOT’s cybersecurity policy requires OAs to identify personnel who require
specialized security training, such as network administrators and CIOs, and ensure
these employees receive a specified number of hours of specialized training. OAs
that provided relevant data generally did not meet these requirements (see
Table 3).

Table 3. Specialized Security Training

OA              Personnel Who Require     Personnel Who Met Hour
                   Specialized Training             Requirements
FHWA                               187                        5
FRA                                 43                        0
OST                                113                        2
PHMSA                               69                        3
Source: OIG Analysis

Six OAs—FAA, FMCSA, FTA, MARAD, NHTSA, and SLSDC—could not
provide data on the personnel who received specialized security training or the
hours of training that they attended. Furthermore, the Surface Transportation
Board (STB) did not and does not plan to provide specialized training for its
personnel who require it. OCIO is planning to enforce compliance through a
memorandum of understanding with STB. Finally, RITA did not provide evidence
that 404 of its employees require specialized training and could not tell us how
many actually received training.

This lack of specialized security training makes it difficult for the Department to
be sure that personnel with significant security responsibilities develop the skills
they need to carry out their responsibilities.

DOT’s Incident Reporting and Remediation Practices Reflect Minimal
Improvement

DOT’s policy requires CSMC to monitor all DOT systems for intrusions,
including systems operated by contractors or other Government organizations.
CSMC reported that from July 2012 to July 2013, it successfully remediated 1,478
incidents. However, it does not monitor MARAD’s U.S. Merchant Marine
Academy’s network or the Local Area Network at FAA’s Aviation Safety
subdivision (AVS). Furthermore, during our recent audit of DOT’s common
                                                                                                                         8


operating environment (COE), 15 we found that CSMC cannot fully monitor the
COE because it does not have a complete inventory of network devices. CSMC
also cannot scan AVS devices for vulnerabilities because FAA’s IT networks and
management oversight are not consolidated. FAA officials reported FAA is in the
process of consolidating its networks. Finally, the current memorandum of
agreement between CSMC and OST outlines network, monitoring and
surveillance services, but OCIO does not enforce all of the agreement’s
requirements. These monitoring gaps impede CSMC’s ability to ensure that DOT
reports all incidents to the U.S. Computer Emergency Readiness Team
(US-CERT), 16 as required by OMB.

OMB requires agencies to respond to incidents in a timely manner to minimize
further intrusion. However, DOT has not established remediation timeframes,
potentially extending the time systems are exposed to compromise. In some cases,
the time it took to complete remediation appears excessive given the risks
involved. For example, remediation of denial of service averaged 21 days. See
Table 4 for average number of days to remediate incidents, by National Institute of
Standards and Technology (NIST) categories.

Table 4. CSMC’s Remediation of Security Incidents
                   a
NIST Category                                                 Remediated           Average Days to Remediate
                                                                Incidents                after report to CSMC
1 Unauthorized Access                                                    153                                         19
2 Denial of Service                                                          3                                       21
3 Malicious Code                                                         933                                         18
4 Improper Usage                                                         198                                         14
5 Scans/Probes/Attempted Access                                            39                                        25
6 Investigation                                                          150                                         14
Source: OIG Analysis
a
  Incidents are classified into categories to simplify incident reporting to US-CERT. The categories do not prioritize
timeframes for remediation.


DOT Has Not Fully Complied With Configuration Standards

For use of commercial software, OMB requires agencies to comply with U.S.
Government Configuration Baseline (USGCB) settings for that software. USGCB
has established minimally acceptable, secure system configurations that provide a
baseline level of security and ensure the efficient use of resources. While it has
made some progress, DOT is still not fully compliant with USGCB settings.

15
   Security Weaknesses in DOT’s Common Operating Environment Expose Its System and Data to Compromise, OIG
Report Number FI-2013-123, Sept. 10, 2013.
16
   US-CERT, managed by DHS, coordinates Federal cyber information sharing and manages cyber risks.
                                                                                                                    9


Progress Has Been Made, But Not All Department Computers Comply
With USGCB Settings for Microsoft Windows

OMB requires agencies to adopt USGCB settings for Microsoft Windows
operating systems, to assess compliance with these requirements, and to be
100 percent compliant. To test DOT compliance, we selected a statistical sample
of 994 of 79,759 computers from all OAs, but OAs could not locate 712 of the
994. Based on this, we estimate that OAs could not find 56,376, or 70.7 percent, of
the Department’s 79,759 computers. 17 This is an increase of 14.3 percentage
points from 2012’s 56.4 percent.

We tested the remaining 282 computers in our statistical sample for USGCB
settings. Based on this, we estimate that 82.9 percent of the approximately 23,383
available computers with Windows software in the Department’s universe of
computers and servers met baseline settings, 18 up 20 percentage points from
2012’s 63 percent. For example, FAA’s Air Traffic Organization (ATO) local
area network (LAN) passed 80 percent of the controls in the computers we
sampled. See Table 5 for details on the controls that passed and failed.

Table 5. Results of Sample Testing on USGCB for Windows
Operating Systems
Component General                   Computers               Controls          Controls         Controls       Percent
                a
Support Systems                       Sampled                Tested            Passed            Failed       Passed
        b
COE                                             68             19,479           17,479              2,000        90%
FAA-ATO LAN                                     43              9,245             7,396             1,849        80%
                       c
FAA-AVS LAN                                       0                   0                 0                 0        --
FMCSA Service Centers                           46             12,125             3,644             8,481        30%
                   d
USMMA LAN                                         2                526              517                   9      98%
Volpe Center LAN                                43             10,791           10,185                606        94%
STB LAN                                         26              5,220             1,850             3,370        35%
OIG Infrastructure                              54             14,094           13,550                544        96%
Totals                                        282              71,480           54,621            16,859
Source: OIG analysis
a
  OMB Circular A-130, Appendix III, defines a general support system as an interconnected set of information
resources under the same direct management control that shares common functionality.
b
  The Department’s consolidated OAs’ common network infrastructures (email, desktop computing, and LANs)
into a common IT infrastructure.
c
  AVS LAN did not produce any results due to limitations in their scanning capability.
d
  USMMA LAN produced results for only two selected samples due to the high number of unavailable computers.




17
     Our estimate has a margin of error of +/-4.3 percentage points at the 90 percent confidence level.
18
     Our estimate has a margin of error of +/-8.4 percentage points at the 90 percent confidence level.
                                                                                     10


OMB also requires agencies to submit monthly reports on their maintenance of
USGCB baseline security settings. However, DOT’s monthly reports to OMB
have been incomplete. For example, FAA-AVS has not performed USGCB
scanning due to its limited scanning capability—the data is not included in the
report to OMB. Furthermore, FAA’s security office could not validate the results
from ATO’s USGCB scanning.

DOT Has Not Implemented All Required Controls for Configuration
Management

DOT’s cybersecurity policy and NIST policy require OAs to plan, implement,
monitor, and report on baseline security standards. We tested 55 systems and
found multiple instances in which configuration controls had not been
implemented or were only partially implemented, or documentation did not
identify whether the control was in place (see Table 6).

Table 6. Sample Systems’ Implementation of Configuration
Security Controls
NIST Security                      Configuration                  Flaw    Vulnerability
Control                                                     Remediation      Scanning
                        Baseline    Settings       Change
                                               Management
Implemented                  40           20           43           33              34
Partially Implemented         6           15            2            9               4
Not Implemented               8           10            5            3               4
Status Unidentified           1           10            5           10              13
Total                        55           55           55           55              55
Source: OIG analysis

DOT Continues To Lack a Comprehensive Departmentwide Risk
Management Program

OMB requires agencies to implement risk management programs that include
governance structures for managing and monitoring risk at three levels—
enterprise, business process, and system. To date, DOT has only created a
Departmentwide governance structure that addresses risk at the system level.

At the system level, some OAs have made progress developing their risk
management programs (see Table 7).
                                                                                                           11


Table 7. Risk Management Progress Summary
Risk Management Program Elements                FAA       FHWA        FRA        FTA       OIG      PHMSA
Internal policy documents risk
                                                                                                    
management programs
Defined procedures to execute risk
                                                                                                   
management programs
Established comprehensive governance
structures and follow organizationwide                                                              
risk management strategies
Established criteria for making risked
                                                                                                    
based decisions
Source: OIG analysis

Despite this progress at the system level, the lack of a Departmentwide risk
management program that includes governance structures for managing and
monitoring risk at all three levels makes it difficult for DOT to understand how
information security risk affects its missions and business functions.

The Department’s Capital Planning and Investment Control Process
Does Not Address IT Security

To ensure an adequate budget for security, the Clinger-Cohen Act of 1996 19
requires agencies to plan for and track information security costs as part of their
capital planning processes and to link these costs to their EA. However, DOT has
yet to integrate IT security into its capital planning and investment control
process—due to OCIO’s delay in finalizing the Department’s integration policy
and procedures, and in providing guidance to OAs on estimating IT security costs.
OCIO also informed us that it has not completed the update of its “Integrated
Program Planning and Management (IPPM) Governance and Practitioners
Guide”—which provides a framework for planning and managing IT programs
and projects—to integrate security estimation and management controls. The
Department’s lack of a security estimation process linked to an EA makes it
difficult for the Department to ensure that security funding is cost effective.
Table 8 shows DOT’s IT security investments by OA.




19
  The Clinger-Cohen Act, formerly the Information Technology Management Reform Act, Pub. L. No. 104-106 (1996)
and codified at 40 U.S.C. § 11101, et seq. (2011).
                                                                                                                12


Table 8. DOT’s IT Security Investments

OA               Number of IT           Total Funding                     Total Funding       Security cost
                 Investmentsa         requested for IT                  requested for IT estimation process
                                                                                                           d
                                         investments                            security      established?
                                                           a,c
                                            (in dollars)         (in millions of dollars) b,c
FAA                          132                   $2.7 B                             $59.8                     No
FHWA                           44                 57.1 M                                 2.4                    No
FMCSA                          18                 32.4 M                                 1.8                    No
FRA                            21                 17.1 M                                  .6                    No
FTA                            14                 25.6 M                                  .1                    No
MARAD                          25                 20.2 M                                 1.5                    No
NHTSA                          22                 40.0 M                                  .4                    No
OIG                             2                   3.7 M                                 .3                   Yes
OST                            55                175.5 M                                  .6                    No
PHMSA                          13                 20.8 M                                  .3                   Yes
RITA                           12                 19.9 M                                 1.3                    No
SLSDC                           2                230.0 K                                  .0                   Yes
STB                             5                   1.8 M                                 .0                    No
                                                                                           e
Total                        365                   $3.1B                             $69.0
Source: OIG analysis
a
  OMB Federal IT Dashboard FY 2014 Edition Website (www.itdashboard.gov/portfolios), as of September 23, 2013.
b
  DOT’s Oracle Primavera Portfolio Management (OPPM) system Website (jamcdfpvap137.amc.faa.gov/prosight/), as
of September 24, 2013.
c
  Dollar amounts are rounded.
d
  An organization’s approach to the selection, management, and evaluation of IT security investments with use of the
security model defined in an EA.
e
  This amount does not include approximately $1.5 million that DOT is requesting for IT investments to support the
COE, On Line Rulemaking, and DOT’s Cybersecurity Program.

DOT’S SYSTEM-LEVEL CONTROLS ARE INSUFFICIENT TO
KEEP SYSTEMS SECURE OR ENSURE RECOVERY

The Department’s system-level controls are insufficient to protect the systems’
security and ensure that the systems can be recovered in the event of a serious
breach. Persistent deficiencies impede DOT’s efforts to comply with requirements
for system authorization because OAs have not established risk management
frameworks as required by DOT policy.

OAs Have Not Implemented Risk Management Frameworks

FISMA requires agencies to ensure information security is implemented in
information systems to an acceptable level of risk. NIST’s risk management
framework provides guidance for agencies on security implementation.
Specifically, the framework helps agencies ensure that they implement, assess, and
monitor the appropriate controls to identify and manage risks associated with their
                                                                                   13


systems. The risk management framework includes several aspects of a security
program, including authorization of system operation, coordination of shared
security controls, continuous monitoring of security controls user identity
verification and access control, and contingency planning and testing. OAs have
not complied with NIST’s risk management framework, as DOT policy requires.

OAs Authorize System Operation without Completing All Security
Requirements

OMB Circular A-130, Appendix III, Security of Federal Automated Information
Resources, requires Federal systems to be reauthorized—or reaccredited—at least
once every 3 years. An authorizing officer, typically a senior executive, reviews
the certification results and reauthorizes the system when he or she determines that
the system’s operation poses minimal security risk. However, as of May 2013,
19 DOT systems were unaccredited or not reauthorized to operate—an increase of
8 over fiscal year 2011 (see Table 9).

Table 9. Systems with Expired Authorization to Operate
OA         System                                                        Expiration of
                                                             Authorization to Operate
FMCSA      SAFER                                                            5/29/2009
           PRISM                                                             5/9/2011
           HMPIP                                                            6/23/2011
           Analysis & Information                                           4/28/2013
           DataQs                                                           4/28/2013
           FMCSA LAN Segment at Volpe                                       4/28/2013
           National Consumer Complaints Database                            4/28/2013

           SAFETYNET                                                        4/28/2013
           MCMIS                                                            12/5/2008
MARAD      BlackBoard                                                       3/16/2013
           Comprehensive Academic Management System                         3/16/2013
           USMMA LAN                                                        3/16/2013
           USMMA Student Information System                                 3/16/2013
OST        Grants Information System                                         4/6/2013
           Parking and Transit Benefit System                               4/21/2013
RITA       RITA Mission Support                                             7/30/2009
           RITA Web                                                         5/31/2010
           Transtats                                                        5/16/2011
           TSI Infrastructure                                                1/2/2010
Source: OIG analysis
                                                                                    14


OCIO stated that it had approved system owners’ requests for extensions for
overdue authorizations. However, system owners did not provide all required
information with their requests—including information on unresolved POA&Ms,
agreements for inherited controls, and annual testing of security controls—and
OCIO’s compliance review reports did not identify these issues.

Furthermore, 30 of 60 sample systems had incomplete authorization
documentation, and 8 had incomplete control testing (see Table 10).

Table 10. Sample Systems’ Security Authorization, and Security
Control Testing
      a
OA                      Systems        Systems Without           Systems Without
                         Tested       Adequate Security         Complete Security
                                          Authorization           Control Testing
FAA                             22                          7                  1
FHWA                              5                         0                  0
FMCSA                             3                         3                  3
FRA                               2                         2                  0
FTA                               2                         2                  1
MARAD                             3                         3                  0
NHTSA                             2                         2                  0
OIG                               2                         0                  0
OST                             10                          5                  0
PHMSA                             2                         0                  0
RITA                              4                         3                  3
SLSDC                             1                         1                  0
STB                               2                         2                  0
Total                           60                         30                  8
Source: OIG analysis
a
    For purposes of this report, COE systems are counted under OST.


The lack of proper system security authorization makes it difficult for DOT and
OAs to identify and resolve system weaknesses, and consequently, for the
Department to ensure that its systems are reasonably protected against security
threats.
                                                                                                            15


DOT Has Not Developed Policy and Procedures for the Use of Common
Security Controls

All 13 OAs used common controls 20 as part of their systems’ security. However,
the Department has not made progress in implementing NIST requirements for
these controls. Specifically:

• The Department continues to lack procedures for the use of common controls.

• Common control providers have not finalized security plans to guide users
  when the controls are not effective.

• Common control users do not coordinate with the controls’ providers to ensure
  the controls are effective.

• Common control users frequently do not verify the controls’ functionality
  when they conduct system security authorizations.

Without guidance and security plans, OAs processes for assessing the risks
common controls present to their systems may not be comprehensive enough to
ensure risks are identified and mitigated. Furthermore, the lack of adequate
management of common controls results in systems that are authorized without
testing the common controls that they use.

DOT’s Continuous Monitoring of Security Controls Remains Insufficient

NIST provides guidance to agencies for implementing a program to continuously
monitor security controls. Continuous monitoring provides ongoing awareness of
information security, vulnerabilities, and system threats to support risk
management decisions. In January 2013, in response to our recommendation, DOT
issued the “Security Authorization & Continuous Monitoring Performance
Guide.” The guide provides Departmentwide monitoring standards and requires
OAs to implement continuous monitoring programs that include policy or
procedures, security architectures, metrics, monitoring and assessment
frequencies, and security status reporting. In 2012, OCIO acquired a complex
software solution to assist OAs in continuously monitoring security controls.
However, most OAs, including FAA, have not agreed to use the proposed
software. Only OST is now using this software—for its common operating
environment—but it did not provide evidence that it uses the software’s reports to
address vulnerabilities.


20
     A control that is part of a network and used by a software application that resides on that network.
                                                                               16


Despite DOT’s guidance and new software, none of the OAs has implemented full
programs, and only five have implemented one or more of the required program
elements (see Table 11). The lack of comprehensive continuous monitoring
program diminishes OAs’ abilities to identify and respond quickly to system
security threats.

Table 11. DOT’s Continuous Monitoring Programs
OA               Policy    Architecture   Metrics   Monitoring/    Status
                                                    Assessment    Reporting
                                                    Frequencies
FAA                    x        x           x            x            x
FHWA                   x        x           x            x            x
FMCSA                          x           x            x            x
FRA                            x           x            x            x
FTA                            x           x            x            x
MARAD                  x        x           x            x            x
NHTSA                  x        x           x            x            x
OIG                            x                                  
OST                    x        x           x            x            x
PHMSA                          x                       x           
RITA                   x        x           x            x            x
SLSDC                  x        x           x            x            x
STB                    x        x           x            x            x
Source: OIG analysis

DOT Has Made Limited Progress on Implementing Use of Personal
Identity Verification Cards for User Access to Systems and Facilities

OMB required that (1) by 2008 all Federal personnel have a PIV card, and (2) by
2012 all Federal personnel use PIV cards to log on to agency computers as part of
multifactor user identity authentication. DOT did not meet these deadlines and has
not yet completed the Federal PIV initiative. During 2012, DOT increased PIV
card issuance to above 97 percent, but provisioning (unique identifiers that
associate a card to its holder) remains at only 13 percent. As of June 2013, DOT
continued to report shortcomings in the PIV program:

• Only 39 percent of DOT’s systems were PIV enabled for user log on, and only
  6 percent of its systems require PIV use for user logon. In 2012, we reported
  higher numbers: 42 percent of DOT’s systems were PIV enabled and 7 percent
  required PIV use for user logon. According to OCIO, the reductions resulted
  from OAs providing incomplete information during 2013.
                                                                                                    17


• DOT has not adapted all of its facilities to accept PIV cards for facility
  access. FAA informed us it will upgrade all facilities by the end of fiscal year
  2018. OST informed us that it has a rolling plan for other facilities in which
  each facility will be assessed as funding becomes available.

This lack of full use of PIV cards for user log-in and facility access makes it
difficult for DOT to ensure that system users and individuals that access facilities
are correctly identified as authorized personnel.

DOT’s Contingency Planning and Testing Remains Inadequate

NIST and DOT policies require that agencies test and update their system
contingency plans at least annually. A contingency plan contains detailed guidance
and procedures for restoring a system after an unplanned shutdown. The plan must
be tested to validate its recovery capabilities. It must also be updated regularly so
that it remains current with system enhancements and organizational changes. In a
sample of 60 systems, 11 OAs had deficiencies in their contingency plans for at
least one system (see Table 12).

Table 12. Identified Deficienciesa in Sample Systems’
Contingency Plan Preparation, Training, and Testing, by OA
FAA       FHWA       FMCSA       FRA       FTA      MARAD         NHTSA   OST   PHMSA   RITA    STB
                                                                                        b
No Business Continuity and Disaster Recovery Plan (BCDRP) for all systems
    X        X          X          X         X          X          X      X      X          X   X
BCDRP not revised to correct deficiencies found during testing
             X          X          X         X          X          X      X      X          X   X
Contingency plans not tested
    X        X          X          X         X          X                        X          X   X
Contingency test after action report not developed
    X        X          X          X         X          X          X      X      X          X   X
System backup not in accordance with procedures
             X          X          X         X          X          X      X                 X   X
Alternative processing sites vulnerable to the same risks as primary sites
    X        X          X          X         X          X          X      X      X          X   X
Source: OIG analysis
a
    Deficiencies were found in one or more OAs’ sample systems.
b
    OAs are required to have a BCDRP for each of their systems.

A lack of rigorous contingency planning and testing inhibits OAs’ abilities to
recover their systems after unplanned shutdowns and minimize business
disruption. Furthermore, this lack of risk management frameworks prevents the
                                                                               18


Department and OAs from establishing their information system security with the
most recent security best practices recommended by NIST guidance.

Despite Progress, the Department Continues To Have Problems
Identifying Contractor-Operated Systems

OMB requires agencies to maintain up-to-date inventories of their information
systems. These inventories must designate each system as either “organization
operated” or “contractor operated,” based on who manages the system—the
agency or an outside entity. Contractor operated systems are those that are either
fully or partially owned or operated by a contractor, another agency, or other
entity. Contractor systems represent higher risk to the Department because it does
not manage their security controls.

In fiscal year 2012, OCIO provided OAs with guidance 21 that requires them to
correctly identify contractor operated systems. Based on the guidance, OAs
recategorized 114 systems. However, we found an additional 108 contractor
operated systems that OAs had incorrectly identified as organization operated
systems (see Table 13).




21
     “DOT FISMA Inventory Guide,” June 2012.
                                                                                                            19


Table 13. DOT’s Organization and Contractor System
Designation

OA                        Total               Designation in CSAM                          Contractor Systems
                       Systems                                                          Incorrectly Designated
                                       OA-Operated Contractor-Operated
FAA                          303                   287                            16                       97
FHWA                           21                     0                           21                        0
FMCSA                          18                    16                             2                       0
FRA                            15                     6                             9                       2
FTA                             6                     0                             6                       0
MARAD                          22                     0                           22                        0
NHTSA                          10                     7                             3                       3
OIG                             3                     3                             0                       0
       a
OST                            30                     3                           27                        0
PHMSA                           7                     0                             7                       0
RITA                           17                    16                             1                       6
SLSDC                           1                     1                             0                       0
STB                             1                     1                             0                       0
Total                        454                   340                            114                     108
Source: OIG analysis
a
    For purposes of this report, we counted the COE’s systems as OST’s systems.


The lack of an accurate system inventory makes it difficult for the Department to
provide direction to OAs and contractors on information security, to enforce
compliance with information security requirements, and to ensure security risks
are reduced in cost-effective ways.

OAs That Use Cloud Computing Have Not Complied With
Requirements

Cloud computing enables convenient, on-demand network access to shared pools
of computing resources—such as networks, servers, storage, and applications—
that can be rapidly provisioned and released with minimal management effort.
Cloud computing resources are either provided through private offering—
exclusive use by the organization—or public offering—the cloud infrastructure is
provisioned for open use by the general public. OMB requires agencies to identify
all information systems that use cloud computing and ensure that the systems
adhere to Federal cloud computing security requirements. These requirements are
documented in OMB’s Federal Risk and Authorization Management Program
(FedRAMP). OMB templates help agencies satisfy FedRAMP’s requirements with
standard language for contracts and service agreements with their providers.
                                                                                20


However, not all OAs using cloud computing provided adequate evidence of their
compliance with these requirements. For example, four OAs—MARAD, RITA,
FTA and OST—have investments that use cloud computing and have the
following issues:

• MARAD and RITA did not provide evidence that they had FedRAMP
  compliant agreements in place for their investments.

• FTA uses private services managed by OST to host several information
  systems but has no agreement with OST for the services.

• OST reported that its inventory of investments using cloud computing is
  inaccurate and that its investments are mislabeled.

The lack of accurate inventories of IT investments that use cloud services makes it
difficult for the Department to ensure that cloud computing agreements comply
with FedRAMP requirements, thus placing systems at risk for compromise.

DOT LACKS AN EFFECTIVE PROCESS FOR THE REMEDIATION
OF SECURITY WEAKNESSES

FISMA requires agencies to develop a process to remediate security weaknesses.
OMB also requires departments to develop POA&Ms for system weaknesses and
to prioritize remediation based on the seriousness of each weakness. DOT policy
requires OAs to categorize their systems’ weaknesses as low, medium, or high
priorities based on risk criteria they developed. DOT policy also requires OAs to
record their POA&Ms in CSAM.

In September 2012, DOT issued its Security Weakness Management Guide that
provides additional details to OAs on how to report, manage, and monitor security
weaknesses. However, DOT’s POA&Ms are still not managed in accordance to
Federal and Department requirements. OAs have 6,714 open POA&Ms—almost
1,500, or 28 percent, more than last year, some of which date from 2005. For
example:

• 2,473 (37 percent) lack planned start dates;

• 4,310 (64 percent), 95 of which were high priority, did not document
  remediation costs; and

• 1,469 were moderate priority and did not identify costs.

See Table 14 for details.
                                                                         21



Table 14. Summary of Open POA&Ms Without Planned Start
Dates or Documented Costs (from 2005 through 2013)
OA                Total Open   With No Planned           With No
                    POA&Ms           Start Date Documented Costs
COE                      43                 0                 0
FAA                    4,624             1,427             2,743
FHWA                    115                 1                 1
FMCSA                  1,182              626              1,163
FRA                     133                49                94
FTA                      25                 0                 0
MARAD                   319               295               159
NHTSA                     2                 2                 0
OIG                       3                 0                 0
OST                      96                 2                 3
PHMSA                     3                 2                 3
RITA                     87                44                77
SLSDC                     1                 0                 0
STB                      81                25                67
Total                  6,714             2,473             4,310
Source: OIG analysis

We identified other noncompliances related to the remediation of security
weaknesses:

• Of the 60 sample systems we reviewed, 27 had POA&Ms that OAs had not
  recorded in CSAM. DOT policy requires OAs to record all known weaknesses
  in CSAM—a database intended to facilitate tracking of security weaknesses
  and their remediation.

• A 2010 OCIO-commissioned assessment of COE security did not review COE
  weaknesses in CSAM.

• OCIO has not complied with FISMA’s requirement that department CIOs track
  open recommendations from their inspectors generals’ annual reviews.

• OCIO did not provide evidence that it had complied with OMB’s requirement
  for Federal CIOs to review their agencies’ progress on POA&M remediation.

Unresolved POA&Ms make it difficult for DOT to ensure systems are adequately
secured and protected, thus creating risk of compromise.
                                                                                22



CONCLUSION

While DOT implemented a number of actions to enhance its cybersecurity
program, many are incomplete and others have not been initiated. In most cases,
overall progress has been slow. Long-standing deficiencies put at risk the
confidentiality, integrity, and availability of the Department’s information and
make it vulnerable to hackers and others who aggressively probe and compromise
Federal networks. Until the Department implements corrective actions to
remediate weaknesses and comply with Federal requirements, DOT’s IT systems
will remain exposed to serious security risks.

RECOMMENDATIONS

To help the Department address the challenges in developing a mature and
effective information security program, we recommend that the Chief Information
Officer take the following actions in addition to 15 recommendations that are still
open from prior FISMA reports:

Enterprise-Level Weaknesses

1. Obtain and review specialized training statistics and verify, as part of the
   compliance review process, that all employees with significant security
   responsibilities have completed the number of training hours required by
   policy. Report results to management and obtain evidence of corrective
   actions.

2. Increase oversight of OA’s processes for configuration management and verify
   that mitigating activities are initiated, executed, and completed in accordance
   with DOT policy and NIST guidance. Report exceptions to OA management.

3. In conjunction with FAA’s CIO, institute periodic scanning for USGCB and
   baseline compliance for the FAA LANs to include analysis of results to
   remediate deficiencies. Create a POA&M to track progress and verify
   completion of the action.

Information System Security

4. Obtain and review plans from FMCSA, MARAD, OST, and RITA to authorize
   systems with expired accreditations. Perform security reviews of unauthorized
   systems to determine if the enterprise is exposed to unacceptable risk.
                                                                                23


5. Obtain a schedule and action plan from Operating Administrations to enhance
   and develop their internal procedures for continuous monitoring in accordance
   with NIST guidance. Report to OA management any delays in completing the
   procedural guidance.

6. Review systems to determine which ones are contractor operated and update
   CSAM accordingly. As part of the compliance review process, review new
   systems to determine if they are contractor operated.

7. Obtain a schedule and action plan for OAs to develop procedures for
   comprehensive cloud computing agreements to include security controls roles
   and responsibilities. Report to OA management any delays in completing the
   procedures.

8. Obtain and review existing cloud computing agreements to assess compliance
   with agency policy, including security requirements. Report exceptions to OA
   management.

AGENCY COMMENTS AND OIG RESPONSE

We provided a draft of this report to OCIO on November 12, 2013. On
November 20, 2013, we received OCIO’s response, which can be found in its
entirety in the appendix to this report. In its response, OCIO generally concurred
with our recommendations and highlighted the progress it made during fiscal year
2013. OCIO also outlined its plan to make its cyber environment as secure as
possible and its commitment to providing us with specific planned actions and
milestones to address our recommendations. The Office will provide to us, by
January 31, 2014, specific responses to each recommendation that identify and
prioritize planned actions and anticipated milestones.


ACTIONS REQUIRED

We believe that OICO is responding to our recommendations. However, we must
review OCIO’s January 31, 2014 submission to determine whether the Office’s
specific planned actions and anticipated milestones satisfy the intent of each
recommendation. Based upon this review, we will also determine whether the
recommendations are resolved but open pending completion of the planned actions
and milestones. All corrections are subject to follow-up provisions in DOT Order
8000.1.C.

We appreciate the courtesies and cooperation of the Department’s representatives
during this audit. If you have any questions concerning this report, please call me
                                                                              24


at (202) 366-1959; Lou E. Dixon, Principal Assistant Inspector General for
Auditing and Evaluation, at (202) 366-1427; or Louis C. King, Assistant Inspector
General for Financial and Information Technology Audits, at (202) 366-1407.


cc: Deputy Secretary
    Assistant Secretary for Budget and Programs/Chief Financial Officer
    CIO Council Members
    DOT Audit Liaison, M-1
                                                                                 25


EXHIBIT A. SCOPE AND METHODOLOGY

FISMA requires us to perform annual independent evaluations to determine the
effectiveness of the Department’s information security program and practices.
FISMA further requires that our evaluations include testing of a subset of systems,
and an assessment, based on our testing, of the Department’s compliance with
FISMA and applicable requirements.

To meet FISMA and OMB requirements, we assessed a subset of 60 of 454
departmental systems and reviewed the compliance of these systems with NIST
and DHS requirements in the following areas: risk categorization; security plans;
annual control testing; contingency planning; certification and accreditation;
incident handling; and plans of actions and milestones (see Table 15 for sampled
systems and Table 20 for all systems). We planned to test the same 60 systems we
tested in the prior year. Of those systems, 55 were available but 5 were retired. To
replace the retired systems, we used 5 of the prior year sample’s substitute
systems. To evaluate USGCB compliance, we selected a statistical sample of 994
of 79,759 devices to scan for compliance. We created a script to extract the test
results of USGCB controls from 282 of 994 devices that were available for
scanning.

We evaluated prior year recommendations and supporting evidence to determine
what progress had been made in the following areas: continuous monitoring;
configuration management; risk management; security training; contractor
services; and identity and account management. We also conducted testing to
assess the Department’s device inventory; its process for resolution of security
weaknesses; configuration management; incident reporting; security-awareness
training; remote access; security capital planning; and account and identity
management. Our tests included analyses of data contained in the Department’s
CSAM system, reviews of supporting documentation, and interviews with
departmental officials.

As required, we submitted to OMB qualitative assessments of DOT’s information
security program and practices. We also reviewed the Department’s progress in
resolution of weaknesses and implementation of recommendations identified in
our prior FISMA reports.

Per agreement with the Department, our request for supporting documentation
was due July 31, 2013. We performed our information security review work
between February 2013 and November 2013. We conducted our work at
departmental and OA Headquarters' offices in Washington, D.C.




Exhibit A: Scope and Methodology
                                                                                         26


We conducted our audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Generally accepted Government auditing standards also require us to disclose
impairments of independence or any appearance thereof. OMB requires that the
FISMA template include information from all OAs, including OIG. Because OIG
is a small component of the Department, based on number of systems, any testing
pertaining to OIG or its systems does not impair our ability to conduct this
mandated audit.

Table 15. OIG’s Representative Subset of DOT Systems, by OA
No.   System                                                          Impact     Contractor
                                                                             a            b
                                                                       Level     System?
Federal Aviation Administration
1     Whistleblower Protection Program                                  High         X
2     Inspector Credentials                                             High         X
3     Web Operations Safety System                                      High         X
4     Safety Risk Management Tracking System                            Low          X
5     Bandwidth Manager                                               Moderate       X
6     AST Local Area Network                                          Moderate       X
7     Air Route Surveillance Radar Model 4                            Moderate       X
8     ASH External Web Portal                                         Moderate       X
9     Safety Management Information System                            Moderate       X
10    Interim Voice Switch Replacement System                         Moderate       X
11    Advanced Qualification Program                                    Low          X
12    Obstruction Evaluation/Airport Airspace Analysis                  Low          X
13    Safety Issues Reporting System                                  Moderate       X
14    Monitor Safety Analyze Data                                     Moderate       X
15    FAA Read-Only Data Interface                                    Moderate       
16    Real Estate Management System                                   Moderate       X
17    Enterprise Architecture & Solutions Environment                 Moderate       
18    ATO Application Portal                                          Moderate       X
19    Messaging Services                                              Moderate       X
20    Data Multiplexing Network                                       Moderate       X
21    Technical Support Services Contract- Work Release Information
      Tracking System                                                   Low          X
22    Enhanced Terminal Voice Switch                                  Moderate       X




Exhibit A: Scope and Methodology
                                                                                  27


No.   System                                                   Impact     Contractor
                                                                      a            b
                                                                Level     System?
Federal Highway Administration
23    Rapid Approval & State Payment System                      High         
24    ITD Application and Oracle Database Servers                High         
25    FHWA Organization Information System                     Moderate       
26    Motor Fuels and Finance Analysis System – Highways         Low          
27    Federal Lands Labor Cost Distribution Process              Low          
Federal Motor Carrier Safety Administration
28    Safety and Fitness Electronic Records                    Moderate       
29    Hazardous Material Package Inspection Program            Moderate       
30    Performance and Registration Information Systems
      Management                                               Moderate       
Federal Railroad Administration
31    Automated Track Inspection System                        Moderate       
32    Locomotive Engineer Training Simulator                     Low          
Federal Transit Administration
33    TEAM                                                     Moderate       
34    FTA Inter/Intranet                                       Moderate       
Maritime Administration
35    Maritime Service Compliance System                       Moderate       X
36    Electronic Invoice System                                Moderate       X
37    FOIAXpress                                                 Low          
National Highway Traffic Safety Administration
38    EDS                                                      Moderate       X
39    Artemis                                                  Moderate       X
Office of Inspector General
40    US DOT/OIG Infrastructure                                Moderate       X
                                  c
41    US DOT/OIG TIGR System                                   Moderate       X
Office of the Secretary of Transportation
42    Drug and Alcohol Testing Management Information System   Moderate       
43    Facilities and Building Management System                Moderate       
44    Web Printing System                                      Moderate       
45    CASTLE                                                   Moderate       
46    Cyber Security Assessment and Management                   High         
47    Security Operations Systems                                High         
Pipelines and Hazardous Materials Safety Administration
48    Hazardous Materials Information System                   Moderate       
49    PHMSA Portal System                                      Moderate       
Research and Innovative Technology Administration
50    RITA Mission Support                                     Moderate       X




Exhibit A: Scope and Methodology
                                                                                                                    28


No.    System                                                                              Impact        Contractor
                                                                                                  a               b
                                                                                            Level        System?
51     IEC Data Warehouse                                                                 Moderate             X
52     Transtats                                                                             High              X
53     Airline Reporting Data Information System                                             High              X
Saint Lawrence Seaway Development Corporation
54     Financial Management System                                                           Low               X
                                       d
Surface Transportation Board
55     Case Management System                                                             Moderate             X
56     Local Area Network                                                                 Moderate             X
Common Operating Environment
                                                e
57     Common Operating Environment                                                          High              
                                                    f
58     Business Communications System                                                     Moderate             X
Source: OIG
a
  NIST defines impact levels based on the effect a breach of security could have on a system’s confidentiality, integrity
and availability. If the effect is limited, the impact level is low; if serious, moderate; if severe, high.
b
  DOT definition of contractor system
c
  Subsequent to our review, OIG’s TIGR was shut down.
d
  For purposes of this report, STB was selected as part of the sample. Exhibit C defines STB’s obligation to comply
with DOT requirements.
e
  The COE is made up of three components, the campus area network, computing services, and helpdesk services.
f
  BCS has been merged into the COE.


Our previous reports issued in response to FISMA’s mandate are:

• Ongoing Weakness Impede DOT’s Progress Toward Effective Information
  Security, OIG Report Number FI-2013-014, November 14, 2012.
• Persistent Weaknesses in DOT’s Controls Challenge the Protection and
  Security of its Information Systems, OIG Report Number FI-2012-007,
  November 14, 2011.
• Timely Actions Needed to Improve DOT's Cybersecurity, OIG Report Number
  FI-2011-022, November 15, 2010.
• Audit of DOT's Information Security Program and Practices, OIG Report
  Number FI-2010-023, November 18, 2009.
• DOT Information Security Program, OIG Report Number FI-2009-003,
  October 8, 2008.
• DOT Information Security Program, OIG Report Number FI-2008-001,
  October 10, 2007.
• DOT Information Security Program, OIG Report Number FI-2007-002,
  October 23, 2006.
• DOT Information Security Program, OIG Report Number FI-2006-002,
  October 7, 2005.
• DOT Information Security Program, OIG Report Number FI-2005-001,
  October 1, 2004.



Exhibit A: Scope and Methodology
                                                                     29


• DOT Information Security Program, OIG Report Number FI-2003-086,
  September 25, 2003.
• DOT Information Security Program, OIG Report Number FI-2002-115,
  September 27, 2002.
• DOT Information Security Program, OIG Report Number FI-2001-090,
  September 7, 2001.




Exhibit A: Scope and Methodology
                                                                                  30


EXHIBIT B. Status of Prior Years’ Recommendations

Table 16. Status of OIG’s Recommendations for Fiscal Year 2012
No. Status   Recommendation
1   Open     Work with Operating Administrations to enhance and develop their
             internal procedures for inheriting controls, continuous monitoring, and
             capital planning to better address key NIST requirements.
2   Closed Establish timeframes for incident remediation based on risk.
3   Open     Remove inactive computer devices from the Active Directory databases
             by (a) requiring the OAs to develop a POA&M to address the removal of
             such devices in a timely manner, (b) reviewing the adequacy of the
             POA&Ms, and (c) monitoring the OA’s clean-up process through
             completion.
4   Open     Develop, document and approve an enterprise-wide risk management
             program and strategy as defined by NIST 800-39.
5   Open     Identify and work with common control providers to develop and
             implement a security plan that will ensure that systems that inherit
             common controls are adequately protected and C&A’d.




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                   31


Table 17. Status of OIG’s Recommendations for Fiscal Year 2011
No. Status   Recommendation
1   Partially Address these policy and procedural weaknesses:
    Closed • Issue information security policy for OST,
              • Enhance existing policy to address security awareness training for
                 non-computer users, address security costs as part of capital
                 planning, correct the definition of "government system", and address
                 the identification, monitoring, tracking and validation of users and
                 equipment that remotely access DOT networks and applications.
              • In conjunction with the OA CIOs, execute a strategy to ensure that
                 sufficient procedural guidance exists for DOT and the OAs.
3   Open     In conjunction with OA CIOs, establish incident monitoring and detection
             capabilities to include all of the Department's systems and facilitate
             central and real-time reporting.
4   Open     In conjunction with OA CIOs, create, complete or test contingency plans
             for deficient systems.
5   Closed In conjunction with OA CIOs, verify that backup media are properly
           secured and regularly tested.
6   Open     In conjunction with OA CIOs, verify that minimum security controls are
             adequately tested for deficient systems.




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                      32


Table 18. Status of OIG’s Recommendations for Fiscal Year 2010
No. Status   Recommendation
1   Closed Address these policy and procedural weaknesses:
           • Develop procedural guidance for the C&A process. In addition, modify
             existing certification and accreditation policy and procedures to
             address inheritance of common information security controls, and to
             provide procedural guidance to modes.
           • Correct POA&M policy to prioritize weaknesses in a way that ensures
             that high priority weaknesses are resolved before medium priorities,
             and medium ones before low ones. In addition, develop procedural
             guidance to ensure consistency of the POA&M process and to facilitate
             CIO's oversight and management of weaknesses.
           • In conjunction with the modes, develop procedural guidance for
             tracking and training personnel with significant security responsibilities.
             This guidance should address maintaining complete inventories of
             such personnel, and the training needed and provided.
           • Enhance high-level policy with procedural guidance to ensure
             consistency of the network accounts and identity management.
           • In conjunction with the Assistant Secretary for Administration, complete
             Department-wide PIV operating procedures, including procedures to
             terminate PIV cards.
           • Review and revise all configuration management policy and develop
             specific details for activities that are common across the department.
             As part of this effort, develop procedural guidance that would define
             requirements for OAs to use when developing configuration
             management procedures specific to their operation.
           • Develop procedural guidance that would define requirements for OAs
             to use when developing incident handling procedures specific to their
             operation.
           • Enhance policy and procedural guidance to incorporate detailed
             guidance for managing, monitoring and reporting FDCC compliance,
             including the use of SCAP tools to ensure FDCC compliance. Once
             policy adequately addresses contractor oversight per Recommendation
             4 of last year's report, develop relevant procedural guidance. This
             policy should establish the criteria and guidelines for DOT’s
             identification and reporting of contractor systems consistent with OMB
             requirements
           • Enhance high-level policy with procedural guidance to ensure remote
             access and wireless networking is authorized, managed and monitored
             in compliance with OMB, NIST and DOT policies.
2   Closed To the extent the OAs require their own guidance, review guidance to
           verify compliance with department policies and procedures.
3   Closed Implement a quality assurance process to review OA
           specific configuration management procedures to ensure that they adhere
           to the departmental policy and Federal requirements.
4   Closed Implement a process to review OAs security configuration management
           practices and software scanning capabilities. Provide monitoring of OAs
           practices to ensure they are adhering to the policy and practices.


Exhibit B. St atus of Prior Year’s Recommendations
                                                                                        33


No. Status    Recommendation
5    Closed Require OST to implement required system patches on their Delphi
            system.
6    Closed Conduct scanning of all DOT networks to ensure compliance with FDCC
            requirements. In addition, review results of modal SCAP compliance
            scans to identify and resolve incorrect FDCC settings.
7    Closed Require and approve deviation requests for those non-conforming
            settings that are truly needed and for which risks have been mitigated and
            accepted.
8    Closed Conduct periodic tests to assess FDCC compliance and deployment of
            patches, including service packs.
9    Closed Analyze the incorrect FDCC configuration settings identified in our testing,
            and for those that do not have approved deviations, require OAs to create
            POA&Ms to correct the settings.
10   Closed Implement a practice to review OA specific incident handling procedures
            to ensure that they adhere to the departmental policy.
11   Closed Implement a process to review reported incidents to ensure timely
            reporting to US-CERT. In addition, provide monitoring of incidents
            reported to ensure all required data in the tracking system(s) is up-to-date
            for incidents sent and data received back for US-CERT.
12   Closed Review FHWA, FMCSA, FRA, FTA and RITA automated scans
            confirming timely resolution of vulnerabilities. If deficiency is found
            require OA to provide corrective action and to update plan of actions and
            milestone to address weakness.
13   Closed Require OAs to reconcile their contractor records with DOT security
            department and update their records accordingly. Monitor and report to
            the Deputy Secretary, Operating Administrations’ progress in resolving
            the discrepancy with their contractor records and DOT security
            department.
14   Open     Identify and implement automated tools to better track contractors and
              training requirements.
15   Closed In conjunction with the MARAD, create a POAM for each system that is
            missing a certification and accreditation. This POAM should be properly
            prioritized to ensure this critical matter is immediately addressed.
16   Closed In conjunction with MARAD, promptly update Cyber Security Assessment
            and Management (CSAM) system to reflect its current system inventory
            and related information (including status of certification and accreditation).
17   Closed Work with MARAD to finalize agreements with C&A service providers to
            certify MARAD systems.
18   Open     Review the results of OA assessments to determine an accurate
              inventory of contractor systems.




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                            34


No. Status    Recommendation
19   Closed Work with the Department's acquisition personnel to develop common
            contract language that requires IT contractors to enforce applicable
            FISMA and OMB requirements. Once this language is approved, review
            all new planned IT acquisitions, prior to award, to verify that this clause is
            contained in the statement of work or comparable document.
20   Closed Research and standardize automated tools that will proactively monitor
            remote devices connecting to DOT networks.
21   Closed Conduct tests of remote access solutions to ensure they comply with
            Federal requirements and DOT guidance.
22   Closed In conjunction with the Assistant Secretary for Administration, develop a
            Department-wide implementation plan that specifies resources needed,
            responsible parties, strategies for risk mitigation, etc., to ensure that all
            employees and contractors receive PIV cards by December 31, 2010.
23   Open     Implement the use of PIV cards as the primary authentication mechanism
              to support multi-factor authentication at the system and application level
              for all DOT's employees and contractors.
24   Closed Perform periodic reviews of active user accounts and network devices to
            identify accounts that need to be disabled.
25   Closed Work with OAs to identify and logically segregate user accounts and
            service (role) accounts.
26   Closed Work with OAs to implement automated mechanisms to disable inactive
            accounts, as specified by DOT policies, and to audit account creation,
            modification, disabling, and termination actions.
27   Open     Educate and assist OAs in implementing dual accounts for administrators.
              Subsequently, conduct reviews to determine that all DOT GSSs use
              these accounts.
Source: OIG




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                          35


Table 19. Status of OIG’s Recommendations for Fiscal Year 2009
No. Status    Recommendation
1    Closed Revise the incident response policy to identify conditions under which
            incidents should be reported to law enforcement (i.e., OIG), how the
            reporting should be performed, what evidence should be collected, and
            how it should be collected.
2    Closed Revise the security awareness and training policy to include the
            identification of all users, such as employees, contractors, and others
            requiring access to DOT information systems. Include provisions in the
            policy to separate these active user accounts from the non-person
            accounts.
3    Closed Revise training policy to list the job functions that require specialized
            security training and the type of specialized training that is required for
            those job functions as described in NIST SP 800-16.
4    Closed Revise policy to address security of information and information systems
            managed by contractors, including information security roles and
            responsibilities, security control baselines and rules for departures from
            baseline, and rules of behavior for contractors and minimum
            repercussions for noncompliance.
5    Closed Revise the interface agreement policy to incorporate necessary elements,
            such as purpose of the interconnection, description of security controls,
            schematic of interconnection, timelines for terminating or reauthorizing the
            interconnection, and authority of establishing the interconnection.
6    Closed Revise the plan of action and milestones policy to address all the OMB
            requirements, including description of weakness, scheduled completion
            date, key milestones, changes to milestones, source of the weakness,
            and status.
7    Closed Ensure that the Federal Aviation Administration, Saint Lawrence Seaway
            Development Corporation, and Pipeline and Hazardous Materials Safety
            Administration have deployed DOT approved configuration baselines and
            tools to assess implementation status.
8    Closed Use automated tools to periodically verify status of completion reported by
            Operating Administrations and identify deviations from the approved
            baseline configurations.
9    Closed Require Operating Administrations to manage identified deviations from
            approved baseline configurations by tracking and resolving significant
            baseline configuration weaknesses in plan of actions and milestones.
10   Closed Work with Operating Administration Chief Information Officers to ensure
            that all new IT contracts include the acquisition language on common
            security configurations as required by DOT and OMB M-07-18.
11   Closed Work with the CSMC to develop a process to ensure that all Department
            of Homeland Security reference numbers are received and entered into
            the DOT tracking system for confirmation.
12   Closed Develop and establish a tracking system that effectively and routinely
            accounts for all active contractors requiring security awareness training.



Exhibit B. St atus of Prior Year’s Recommendations
                                                                                       36


No. Status    Recommendation
13   Closed Develop a mechanism to enforce that all employees including contractors
            with login privileges have completed the required annual security
            awareness training in order to gain and maintain access to Department
            information systems.
14   Closed Identify and ensure all employees with significant security responsibilities
            take the necessary specialized security training to fulfill their
            responsibilities.
15   Closed Monitor, and report to the Deputy Secretary, Operating Administrations’
            progress in resolving long overdue security weaknesses, reestablishing
            target completion dates in accordance with departmental policy, providing
            cost estimation for fixing security weaknesses, prioritizing weaknesses,
            and recording all identified security weaknesses in plan of actions and
            milestones.
16   Open     Ensure accurate information is used to monitor Operating Administrations’
              progress in correcting security weaknesses.
17   Closed Require Chief Information Security Officer and Operating Administrations
            conduct a review to identify all interfaces with systems external to the
            Department, ensure related security agreements are adequate, and track
            them in the Cyber Security Assessment and Management system.
18   Closed Ensure that Maritime Administration properly inventories its information
            systems and tracks them in the Cyber Security Assessment and
            Management system. (MARAD)
19   Closed Ensure that Maritime Administration certifies and accredits each system in
            the revised inventory. (MARAD)
20   Open     Improve its quality assurance checks on the Operating Administrations’
              certifications and accreditations by increasing the frequency and scope of
              its checks, communicating results and expected actions to the Operating
              Administrations, requiring updated plan of actions and milestones to
              address weaknesses noted (including those found in the Inspector
              General reviews), and follow-up on resolution of weaknesses noted.
21   Closeda Require Federal Aviation Administration, Federal Highway Administration,
             Federal Railroad Administration, Maritime Administration, Office of the
             Secretary of Transportation and Pipelines and Hazardous Materials
             Safety Administration to conduct system contingency testing of the
             systems that did not have evidence that of such tests.
22   Closed Develop a process to ensure Operating Administrations continuously
            monitor and test information system security controls.
23   Closed Finalize the inventory count for systems containing privacy information.
24   Closed Work with Operating Administrations to complete privacy impact
            assessments for applicable information systems.
25   Closed Work with the Federal Aviation Administration to establish a reasonable
            target date for the completion of the reduction of social security numbers
            recorded in its systems.
26   Closedb Implement 2-factor authentication for remote access.



Exhibit B. St atus of Prior Year’s Recommendations
                                                                                37


No. Status   Recommendation
27 Closed Implement NIST-approved encryption on all mobile computers/devices.
Source: OIG
a
  Replaced with 2011 Recommendation No. 3
b
  Merged into 2010 Recommendation No. 23




Exhibit B. St atus of Prior Year’s Recommendations
                                                                                                                     38



EXHIBIT C. DOT’S OPERATING ADMINISTRATIONS AND
SYSTEM INVENTORY COUNTS

Table 20. System Inventory Counts for Fiscal Years 2012 and
2013
Organizationa                                                                                           Fiscal Year
                                                                                                   2012          2013
Common Operating Environment (COE)                                                                     3             1
Federal Aviation Administration (FAA)                                                              284           303
Federal Highway Administration (FHWA)                                                                21            21
Federal Motor Carrier Safety Administration (FMCSA)                                                  18            18
Federal Railroad Administration (FRA)                                                                15            15
Federal Transit Administration (FTA)                                                                   5             6
Maritime Administration (MARAD)                                                                      22            22
National Highway Traffic Safety Administration NHTSA)                                                10            10
Office of Inspector General (OIG)                                                                      3             3
Office of the Secretary (OST)                                                                        28            29
Pipeline and Hazardous Materials Safety Administration (PHMSA)                                         7             7
Research and Innovative Technology Administration (RITA)                                             15            17
Saint Lawrence Seaway Development Corporation (SLSDC)                                                  1             1
                                                b
Surface Transportation Board (STB)                                                                     2             1
Total Systems                                                                                      434           454
 Source: OIG, and DOT CSAM as of September 27, 2013
a
  For purposes of reporting under FISMA, we consider "Operating Administrations" to include all organizations listed
above.
b
  Under 49 U.S.C., Subtitle I, Chapter 7: In the performance of STB functions, the members, employees, and other
personnel of the Board shall not be responsible to or subject to the supervision or direction of any officer, employee, or
agent of any other part of the Department of Transportation. Accordingly, STB is not obligated to utilize IT security
policies or procedures provided by the Department of Transportation.




Exhibit C: DO T Operating Administrations and System Inventory
Counts
                                                                39


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                        Title

Nathan Custer               Program Director

Michael Marshlick           Project Manager

Martha Morrobel             Information Technology Specialist

Tracy Colligan              Information Technology Specialist

Felicia Moore               Information Technology Specialist

Jenelle Morris              Information Technology Specialist

Jason Mott                  Information Technology Specialist

Nileshkumar Patel           Information Technology Specialist

Gary Fishbein               Referencer

Petra Swartzlander          Senior Statistician

Megha P. Joshipura          Statistician

Karen Sloan                 Communication Officer

Susan Neill                 Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                       40

           APPENDIX. AGENCY COMMENTS



                                                                            Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation

           ACTION: Management Response to the Office of
           Inspector General (OIG) Draft Report on Federal
SUBJECT:                                                              DATE:        NOVEMBER 19, 2013
           Information Security Management Act 2013

           Richard McKinney                                           REPLY
                                                                      TO
FROM:      DOT Chief Information Officer                               Attn. of:



           Calvin l. Scovel III
TO:
           Inspector General

           DOT’s Commitment to Cybersecurity as a Priority

           As the new Chief Information Officer (CIO) of the Department of Transportation
           (DOT), I am committed to making cybersecurity the top priority. To demonstrate
           our commitment to improve our security posture during 2013, we’ve already made
           improvements through the issuance of new guidance on continuous monitoring,
           security authorization, and risk management. The Department has also made
           progress on Administration Cybersecurity Cross Agency Priority goals to include:
           Increasing continuous monitoring capabilities across 57% of agency assets;
           improving implementation of Trusted Internet Connection capabilities from 62%
           to 72%, and; increasing required use of PIV cards to securely access DOT
           networks from 0% to 7% in the span of a single quarter. My Office has also
           submitted evidence for and requested closure to the majority of open FISMA audit
           recommendations from previous years.

           This renewed emphasis on improving the security of our environment
           acknowledges the significance of the OIGs findings around cybersecurity this
           year, which we have already begun to address. For example, DOT has made
           significant strides in making its Common Operating Environment safer, with the
           addition of tighter controls, greater emphasis on continuous monitoring, and
           investing resources in better hardware and software. These recent advancements
           balance the increasing risk threshold to DOT against the resources at our disposal.
           We continue to improve the Department’s cybersecurity posture while


           Appendix. Agency Comments
                                                                                                              41

simultaneously maintaining critical operational systems and responding to a
significant number of new information technology requirements set by the Office
of Management and Budget (OMB).

While generally concurring with the recommendations provided by the OIG in this
year’s report, we would like to comment on a few areas where OIG provided
findings:

• The report identifies weaknesses in the Enterprise Architecture (EA) guidance
  of the Department — that it was not detailed enough to ensure DOT’s 13
  operating administrations (OA) create effective EA procedures. In a previous
  OIG EA report 1, my office expressed its commitment to improving EA, and we
  are making progress on the recommendations as described in our response.
  Further, on November 5, 2013, the OMB Federal Chief Enterprise Architect
  provided comments on the DOT IRM Plan, EA Roadmap, and EA Program
  granting DOT an overall score of 3.4/4.0. OMB stated that the EA Roadmap
  and IRM Plan were in the top third of all cabinet level federal government
  agencies. We will continue to focus on the integration of security into the
  Enterprise Architecture, as has been reflected in the plans, roadmap and overall
  program.

• We recognize the need to ensure that appropriate Federal and Contract
  personnel receive appropriate security training, a risk-based decision consistent
  with NIST standards. DOT is committed to continuing discussions with the
  OIG on discrepancies between the way we believe we successfully identify and
  track role-based security training, and the way the OIG interprets its
  completion.

• We ensure that the Department reports its incidents within required timeframes
  to US-CERT. In addition to the current capabilities we already have at our
  Trusted Internet Connections, we will continue to work to further improve
  visibility and remediation times within our component operating
  administrations (OAs). We have also established a Departmental configuration
  management program based on Federal policy, which requires use of USGCB
  and has an established process and workflow for documenting and approving
  deviations.

• We are also leveraging the Department of Homeland Security Continuous
  Diagnostics and Mitigation services this year, as part of its overall Information
  Security Continuous Monitoring Program. This will extend the guidance on

1
    DOT Does Not Have An Effective Enterprise Architecture Program For Management of Information Technology
    Changes, Report Number: FI-2012-086, Issued: April 17, 2012


Appendix. Agency Comments
                                                                                        42

   implementing the Risk Management Framework DOT provided to OAs to
   provide additional tools, training and integration services that will improve our
   holistic security posture. In addition to this, we are also working to ensure that
   cloud services, either currently implemented or in the acquisition process, will
   meet FedRAMP requirements by the June 5, 2014 deadline.

Improving our cybersecurity posture will require gaining commitment throughout
the Department to make our cyber environment as safe and secure as possible.
Getting the basics right is key to successfully achieving this goal so we are using a
comprehensive team approach to planning and implementing the foundational
elements along with developing longer term plans. Making sure that we
understand the relevance of the findings and their relationship to the
recommendations is critical to developing actionable mitigation strategies to
improve our posture.

We intend to provide, under separate cover, by January 31, 2014, a specific
response to each recommendation that identifies and prioritizes actions planned
and anticipated milestones. Prioritization will factor in consideration of the OIG’s
work, Government-wide priorities, and data available from the Department’s own
monitoring and risk management systems. The Department intends to use all tools
at its disposal to address these priorities and continue to meaningfully improve its
cybersecurity posture. Please contact Joe Albaugh (joe.albaugh@dot.gov,
202.366.9201) in the Office of the Chief Information Officer with any questions.




Appendix. Agency Comments
